                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audits and Inspections




MANAGEMENT ALERT
Remediation of Selected Transuranic Waste
Drums at Los Alamos National Laboratory –
Potential Impact on the Shutdown of the
Department's Waste Isolation Plant




 DOE/IG-0922                         September 2014
                                  Department of Energy
                                     Washington, DC 20585

                                        September 30, 2014


MEMORANDUM FOR THE SECRETARY


FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Management Alert on "Remediation of Selected
                          Transuranic Waste Drums at Los Alamos National Laboratory –
                          Potential Impact on the Shutdown of the Department's Waste Isolation
                          Pilot Plant"

BACKGROUND

The Department of Energy's (Department) Los Alamos National Laboratory (LANL), managed
and operated by Los Alamos National Security, LLC is one of the Nation's premier national
security laboratories. As part of its mission, LANL generated a large volume of transuranic
(TRU) waste consisting mostly of radioactively contaminated clothing, tools, rags, debris and
soil. In January 2012, a framework agreement was established between the Department and the
New Mexico Environment Department (NMED) to ship 3,706 cubic meters of combustible and
dispersible TRU waste from LANL to the Department's Waste Isolation Pilot Plant (WIPP)
located in Carlsbad, New Mexico, for permanent disposal by June 30, 2014. The Department
established the Central Characterization Project (CCP) to characterize and certify waste to help
ensure that it met WIPP's waste acceptance criteria. Since the TRU waste campaign began,
LANL reported that it had shipped TRU waste to WIPP and was on track to meet target disposal
dates.

On February 14, 2014, a radiological release from one TRU waste drum was detected in the
underground repository at WIPP. As a consequence, underground operations at WIPP were
suspended and the Nation's only operating deep geologic repository for the permanent disposal
of defense-related TRU waste was shut down for an indefinite period. The impact of the
shutdown, both incurred to date and in the future, is valued in terms of tens of millions of dollars.
In addition, the shutdown adversely impacts the remediation of numerous Department sites by
delaying the permanent disposal of waste. The impact in both cases is highly significant. On
May 15, 2014, visual evidence confirmed a breached container that originated from LANL.

We initiated a special inquiry to determine whether LANL appropriately managed the
remediation and repackaging of waste shipped to WIPP.

IMMEDIATE CONCERN

The Department's separate accident investigation had not yet determined the cause of the
radioactive release incident at WIPP. Our review, however, identified several weaknesses in
LANL's procedures for the development and approval of waste packaging and remediation
techniques that may have contributed to the radiological event. Of particular concern, not all
waste management procedures at LANL were properly vetted through the established procedure
revision process nor did they conform to established environmental requirements. In our view,
immediate action is necessary to ensure that these matters are addressed and fully resolved
before TRU waste operations are resumed, or, for that matter, before future mixed radioactive
hazardous waste operations are initiated.

In particular, we noted that:

   •   Despite specific direction to the contrary, LANL made a procedural change to its existing
       waste procedures that did not conform to technical guidance provided by the Department
       for the processing of nitrate salt waste; and

   •   Contractor officials failed to ensure that changes to waste treatment procedures were
       properly documented, reviewed and approved, and that they incorporated all
       environmental requirements for TRU waste processing.

These weaknesses led to an environment that permitted the introduction of potentially
incompatible materials to TRU storage drums. Although yet to be finally confirmed, this action
may have led to an adverse chemical reaction within the drums resulting in serious safety
implications. Notably, Los Alamos National Security, LLC and its subcontractor, Energy
Solutions, added potentially incompatible materials to waste stored in drums during the waste
remediation process at LANL's Waste Characterization, Reduction and Repackaging Facility
(WCRRF). Specifically:

   •   Organic absorbent material (organic kitty litter) was added to the waste stored in the
       drums, materials that may result in a chemical reaction; and

   •   Liquid acid neutralizers were also added to the drums, substances that were potentially
       incompatible with the stored waste.

LANL's waste processing and safety related control procedures should have prevented the
addition of these potentially incompatible materials. However, the process failed in this matter.
Specifically, LANL's procedure revision process failed to adequately analyze potential reactivity
issues and/or provide sufficient detail in the waste remediation procedure. In addition, LANL
violated established environmental requirements by treating a corrosive waste outside its
environmental permit by adding neutralizers and absorbents to the waste.

As noted, the specific cause of the radioactive release at WIPP has not been determined. Yet, the
addition of these potentially incompatible materials to nitrate bearing TRU waste drums during
the waste remediation process has resulted in problems that the Department will ultimately need
to address. Such actions, likely costly, will require additional efforts to examine the storage,
relocation and processing of the remaining drums containing the potentially incompatible
materials at LANL, WIPP and at a temporary waste storage facility the Department used when
WIPP shipments were interrupted. The more pressing need, however, is to ensure that additional
development or modification of existing waste treatment procedures is not undertaken without
implementing an adequate review and approval process.
                                                2
Changes to the Waste Remediation Process

LANL undertook revisions to its existing waste procedures without following Department
direction or providing appropriate subject matter expert (SME) review. In particular, the process
LANL used to modify its procedures failed to identify the hazards associated with the addition of
potentially incompatible materials to the waste remediation process. Had LANL followed
Department direction and provided appropriate SME reviews, it likely would have determined
that the changes to its procedures would result in the introduction of potentially incompatible
materials to the waste stream. Notably, because of this failure, LANL did not discover that the
mixture of the waste and remediation materials it planned to add to TRU waste drums were
known to be inherently hazardous.

LANL's procedure revision process failed to discover or properly evaluate chemical materials
compatibility issues. For example, officials apparently did not consider readily available
information on chemical reactions, such as an April 2000 Environmental Protection Agency
(EPA) case study on waste fuel/oxidizer reaction hazards. Although the EPA case study did not
specifically reference nitrate salts as an oxidizer, it stated that "Disposing of oxidizers by mixing
them with organic solvents is generally recognized as inherently hazardous; and that common
references warn against mixing oxidizers with organic or combustible materials." LANL also
did not detect that the word "organic" had reportedly been inadvertently added to the WCRRF
Waste Characterization Operations Procedure, an oversight that lead to the addition of
potentially incompatible "organic" kitty litter to waste drums. LANL officials also approved the
use of a neutralizer that was potentially incompatible without reviewing the chemical
compatibility.

                                        Use of Absorbents

LANL's process for updating operating procedures did not ensure that the procedure for
remediating nitrate salt bearing TRU waste drums was revised according to a May 2012
technical paper (white paper) written by the LANL - Carlsbad Operations Difficult Waste Team
(DWT). The white paper specified the use of "Kitty Litter/Zeolite clay" as an acceptable
absorbent to be used with nitrate salts for WIPP. Ordinary kitty litter and Zeolite clay are
inorganic dirt mixtures. Consistent with the direction in the white paper, in July 2012, LANL
decided to revise the Procedure to implement the mixture of Kitty Litter/Zeolite and nitrate salts.
We noted that both the white paper and LANL's decision document for updating the Procedure
clearly identified the absorbent to be used was Kitty Litter/Zeolite. Neither the white paper nor
the decision document mentioned using "organic" kitty litter. However, the Procedure was
revised in August 2012 to incorporate "organic" kitty litter in the processing of waste with nitrate
salts. According to an Energy Solutions official, during a meeting held to discuss the processing
of nitrate salt waste, the DWT verbally approved using "organic" kitty litter. However, the DWT
official informed us that the term "organic" was not used and that he did not believe that anyone
else used that term. Despite the apparent disagreement regarding the verbal approval of
"organic" kitty litter by the DWT, an Energy Solutions official stated that the company is only
responsible for the execution of LANL policies and procedures and not for developing them.
Although the Department directed LANL to follow the white paper, the LANL procedure writer
stated that neither the white paper nor the decision document was provided for his review at the
time of the revision. Instead, handwritten notes that called for an organic absorbent to process
nitrate salt drums were improperly relied upon to revise the Procedure.
                                                  3
In addition, LANL's procedure revision process did not ensure that all of the appropriate
organizations reviewed changes to the Procedure. According to LANL's directive for
Environmental Programs Procedure Preparation, Revision, Review, Approval and Use,
responsible line managers and document owners are to assign SMEs and designate the required
review authorities. However, LANL did not require that an SME review the Procedure change
for chemical reactivity. Further, LANL's Environmental organization was not included in the
procedure revision process to review documents that described the handling and processing of
hazardous chemicals and waste. A LANL official stated that in many instances, the signature
page of the Procedure is prepopulated with the standard organizations which would need to
review and concur on many of LANL's various procedures. Although a review was performed
by LANL's Environmental Stewardship organization, its focus was reviewing for compliance
with environmental permits (such as the Resource Conservation and Recovery Act). Despite
documentation reviews from organizations such as Industrial Hygiene, Quality Assurance,
Engineering and Radiation Protection, the direction to use "an organic absorbent (Kitty
Litter/Zeolite)" in the Procedure was subsequently approved.

During the course of our review, we also noted that LANL had not documented in the Procedure
the use of another organic absorbent (a carbon-based polymer), which it had used prior to the
"organic" kitty litter. A DWT official informed us that the polymer was an organic material and
that in 2012, LANL, the Carlsbad Field Office, and the Los Alamos Field Office were notified to
discontinue using it as an absorbent with nitrate salts because of the possible dangers of mixing
organic materials with nitrates. LANL officials could not provide documentation to us regarding
the reason for the discontinued use of the polymer other than an e-mail from LANL directing a
hold on all processing and characterization of salt bearing waste in March 2012. According to an
Energy Solutions official, when the processing of nitrate salts resumed in August 2012, the
Procedure specified the use of "organic" kitty litter. Prior versions of the Procedure did not
mention the specific name of the polymer or its use.

Further, LANL missed an opportunity to identify the potential incompatibility of revised
remediation materials. Under the CCP/LANL Interface Document, LANL has primary
responsibility to notify CCP when there are changes to policies, processes or procedures that
may affect CCP characterization activities or operations. However, the Interface Document does
not require a response from CCP. According to LANL officials, while the CCP was made aware
of the changes to the Procedure, including the use of the "organic" kitty litter to process nitrate
salt drums, no concerns were identified by the CCP. A LANL official provided documentation
that the CCP received a copy of the revised Procedure that incorporated the use of "organic" kitty
litter in September 2012, to update its Acceptable Knowledge documents regarding the waste
stream that contained the nitrate salts. However, we noted that while the CCP's Acceptable
Knowledge documentation repeatedly referred to "kitty litter (clay)" as an absorbent associated
with that particular waste stream, the term "organic" was not found. In May 2014, the
Department informed NMED that the use of an organic kitty litter absorbent was being studied
as a contributor to the possible container breach at WIPP.

                                           Neutralizer

LANL approved using an acid neutralizer that was potentially incompatible with nitrate salts
stored in the drums. In March 2013, LANL revised its treatment procedure to include the
addition of a step to neutralize liquids. However, there was no mention of which neutralizer was
                                                4
to be used. Subsequently, in September 2013, Los Alamos National Security, LLC and Energy
Solutions began using a liquid acid neutralizer with an ingredient that was highly reactive with
oxidizers and was, therefore, potentially incompatible with the nitrate salts. According to a
Department official, the majority of the nitrate salt bearing drums that had liquids was
neutralized with this particular liquid acid neutralizer. The neutralizer's material safety data
sheet did not identify any incompatible materials. However, the neutralizer's material safety data
sheet also stated that the data sheets of the chemicals used with the product must be reviewed
completely and that precautions should be taken. We reviewed the individual data sheets for the
neutralizer's ingredients, and confirmed that the ingredients were not compatible with oxidizers.
Although required, LANL and Department officials acknowledged that a review of chemical
ingredients for the neutralizers was not performed and that a weakness in the control process for
the Procedure change had occurred. A Department official informed us that LANL's current
chemistry analysis results do not indicate that the neutralizer is the sole mechanism that could
explain the radiological release incident at WIPP.

Environmental Requirements

In addition to problems directly associated with the addition of possibly incompatible materials
to TRU waste drums, we also discovered that LANL's review process failed to identify changes
to its waste processing procedures that would result in non-compliance with existing
environmental permits. On July 1, 2014, the Department and Los Alamos National Security,
LLC issued an addendum to the NMED Permit to self-report that the processing of the nitrate
salt waste drums was outside the permit exemptions for treatment activities as required by
NMED rules, incorporating Federal hazardous waste regulations and environmental
requirements, such as the Resource Conservation and Recovery Act. Specifically, the
noncompliance involved neutralizing "corrosive waste" and then adding absorbents to waste that
were assigned multiple EPA hazardous waste codes. The EPA hazardous waste codes describe
what hazards are associated with specifics wastes, such as lead, mercury and ignitable waste.
We noted that LANL's Procedure did not specify what materials they should recognize as
"corrosive waste." In addition, the Procedure did not provide further instruction regarding what
should be done in the event that the waste is corrosive. For example, according to the NMED
Permit, waste processing should be stopped if the waste is assigned multiple EPA hazardous
waste codes (and therefore, do not qualify for Permit exemptions).

Impacts

The Department and LANL told us that they have taken action since the radiological release at
WIPP to ensure the safety and protection of human health and the environment. In addition to
the pause of legacy TRU waste repackaging and treatment, LANL is working to address
processing and/or treatment for the remaining nitrate salt-bearing drums that are currently in
isolated storage. Further, LANL is working with experts from five other national laboratories to
form a Technical Assessment Team to determine the cause of the radiological release in
coordination with the Department's Accident Investigation Board. According to the Los Alamos
Field Office, as of September 2014, there were a total of 713 nitrate salt-bearing waste drums,
with 508 located at WIPP, 86 at LANL, and 119 at a temporary commercial waste storage
facility.



                                                5
Due to the WIPP closure, a contract was executed with a temporary commercial waste facility to
store TRU waste from LANL. The waste to be shipped from LANL was the waste remaining
from LANL's campaign to meet its commitment with NMED to remove the waste by June 30,
2014. The agreement called for the waste to be stored pending disposal at WIPP upon its
resumption. The Department estimated that it will cost $5.1 million for storage through the end
of Fiscal Year (FY) 2014. This cost will be funded by LANL's Environmental Management
budget for cleanup work.

In addition, LANL has incurred costs, above and beyond the $19.9 million that was spent by
WIPP, for its internal efforts related to the WIPP investigation and recovery actions.
Specifically, LANL has spent $1.1 million as of June 2014 for chemistry analysis, sampling, and
Environment, Safety and Health. The Laboratory estimated that it will spend another $3.6
million through FY 2014 for the Technical Assessment Team and additional storage costs.
These costs are likely to increase significantly as LANL takes actions to address problems with a
substantial number of waste drums that were processed with the organic material/potentially
incompatible neutralizer. Notably, LANL acknowledged concerns in this area and recently
notified NMED that it was provisionally reclassifying hundreds of similar waste drums as
potentially containing ignitable or corrosive materials which may pose previously unrecognized
safety issues.

Additionally, LANL could face enforcement actions taken by NMED for not completing major
environmental cleanup operations and for noncompliance with its Hazardous Waste Facility
Permit. In March 2005, LANL, the Department and NMED signed the Compliance Order on
Consent (Order), where LANL agreed to a schedule for the completion of cleanup at various
locations on the LANL site by 2015. The completion of the 3706 TRU waste campaign was vital
to renegotiate cleanup deadlines. Although LANL had removed 3,328 cubic meters (90 percent)
of TRU waste, LANL lost its primary tool to renegotiate the 2015 cleanup deadline for the bulk
of the legacy waste with NMED. At this time, the enforcement actions that will be taken by
NMED are unknown and have yet to be determined. The Order provides penalties for
noncompliance with the cleanup milestones of up to $3,000 per day for each day of
noncompliance.

RECOMMENDATIONS

Due to the unusual circumstances of events leading up to the radiological release at WIPP,
prompt and effective corrective actions are essential to ensure that LANL's processes to change
operating procedures appropriately identify the hazards associated with those changes. To
achieve this, we recommend that the Manager, Los Alamos Field Office direct LANL to:

   1. Ensure all needed SME and organization reviews of procedure changes are performed,
      including those with a chemistry background;

   2. Ensure that SME documents (e.g. white paper, solutions package), are provided to the
      procedure writer;

   3. Ensure that added procedures include sufficient detail to perform the task (e.g. what
      neutralizer to use and to what level to neutralize the waste);

                                                6
      4. Consider notifying Environmental Management organizations, such as the Central
         Characterization Project and Difficult Waste Team, of all changes to LANL waste
         management procedures so that a WIPP acceptability impact review can be performed
         prior to issuing the changes;

      5. Improve communication to procedure writers and reviewers concerning why a change is
         being made (e.g. to avoid combining organic materials with oxidizers in the waste
         stream); and

      6. Reevaluate the waste characterization concerning the nitrate salt waste stream to address
         the noncompliance with the LANL Hazardous Waste Facility Permit.

MANAGEMENT REACTION

Management agreed with the findings and recommendations and proposed corrective actions. In
addition to curtailing remediation operations in May 2014, management stated that it has
instituted additional precautionary protective measures to ensure that workers, the public and the
government are protected. Further, in order to align the focus of accountability of the legacy
environmental cleanup within the Department's Environmental Management program, the
Secretary has directed the development of a plan to transition this work from the National
Nuclear Security Administration to the Office of Environmental Management. Both
organizations will work together to evaluate all elements necessary for an effective transition,
including federal oversight, acquisition strategies, and quality, safety and security. Management
stated, however, that integration of all of these ongoing actions could impact the timeline for
completing the specific actions that address the issues noted in this report. Finally, because the
Department has yet to conclude its investigation, additional issues and corrective actions may
also be identified beyond those contained in this report, and contract terms and conditions will be
used as appropriate for accountability.

AUDITOR COMMENTS

Management's comments are attached and responsive to our recommendations. Management
waived an exit conference.

Attachment

cc:    Deputy Secretary
       Administrator, National Nuclear Security Administration
       Acting Assistant Secretary for Environmental Management
       Chief of Staff




                                                  7
                      Attachment


MANAGEMENT COMMENTS




         8
    Attachment




9
     Attachment




10
     Attachment




11
     Attachment




12
                                         FEEDBACK

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We aim to make our reports as responsive as possible and ask you to consider sharing
your thoughts with us.

Please send your comments, suggestions and feedback to OIGReports@hq.doe.gov and include
your name, contact information and the report number. Comments may also be mailed to:

                              Office of Inspector General (IG-12)
                                     Department of Energy
                                    Washington, DC 20585

If you want to discuss this report or your comments with a member of the Office of Inspector
General staff, please contact our office at (202) 253-2162.
